                                                                           C-IN-OSM-0095-2002


               United States Department of the Interior
                                 Office of Inspector General
                                      Washington, D.C. 20240


                                                                                February 28, 2003

Memorandum

To:        Director, Office of Surface Mining Reclamation and Enforcement

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Independent Auditors’ Report on the Office of Surface Mining Reclamation and
           Enforcement’s Financial Statements for Fiscal Years 2002 and 2001
           (No. 2003-I- 0022)

        We contracted with KPMG LLP (KPMG), an independent certified public accounting
firm, to audit the Office of Surface Mining Reclamation and Enforcement’s (OSM) financial
statements as of September 30, 2002 and for the year then ended. The contract required that
KPMG conduct its audit in accordance with the Comptroller General of the United States of
America’s Government Auditing Standards, the Office of Management and Budget’s Bulletin
01-02 Audit Requirements for Federal Financial Statements, and the General Accounting
Office/President’s Council on Integrity and Efficiency’s Financial Audit Manual.

        In its Independent Auditor’s Report dated November 15, 2002 (Attachment 1), KPMG
issued an unqualified opinion on OSM’s financial statements. KPMG did not note any
reportable conditions related to internal controls over financial reporting. With regard to
compliance with laws and regulations, KPMG disclosed no instances of noncompliant that are
required to be reported or instances where OSM’s financial management system did not
substantially comply with the requirements of the Federal Financial Management Improvement
Act (FFMIA).

        In connection with the contract, we monitored the progress of the audit at key points,
reviewed KPMG’s report and selected related working papers, and inquired of its
representatives. Our review, as differentiated from an audit in accordance with the Government
Audit Standards, was not intended to enable us to express, and we do not express, an opinion on
the OSM’s financial statements, conclusions about the effectiveness of internal controls,
conclusions on whether OSM’s financial management systems substantially complied with the
three requirements of FFMIA, or conclusions on compliance with laws and regulations. KPMG
is responsible for the auditors’ report and for the conclusions expressed in the report. Our review
disclosed no instances where KPMG did not comply in all material respects with the Government
Auditing Standards.

      Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.


Attachment
                                                                                           ATTACHMENT 1


           Suite 2700
           707 Seventeenth Street
           Denver, CO 80202




                                                            INDEPENDENT AUDITORS’ REPORT


The Director of the Office of Surface Mining Reclamation and Enforcement
 and the Inspector General of the Department of the Interior:

We have audited the accompanying consolidated balance sheets of the Office of Surface Mining
Reclamation and Enforcement (OSM) as of September 30, 2002 and 2001, and the related consolidated
statements of net cost for the years then ended, and the related consolidated statement of changes in net
position, combined statement of budgetary resources, and consolidated statement of financing for the year
ended September 30, 2002 (hereinafter referred to as the financial statements). The objective of our audit
was to express an opinion on the fair presentation of these financial statements. In connectio n with our
audit, we also considered the OSM’s internal control over financial reporting and tested the OSM’s
compliance with certain provisions of applicable laws and regulations that could have a direct and
material effect on its financial statements.

SUMMARY
As stated in our opinion on the financial statements, we concluded that the OSM’s financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally accepted
in the United States of America.
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. However, we noted no matters involving the
internal control and its operation that we considered to be material weaknesses as defined below in the
Internal Control Over Financial Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and regulations disclosed no
instances of noncompliance with laws and regulations that are required to be reported under Government
Auditing Standards, issued by the Comptroller General of the United States, or Office of Management
and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.
The following sections discuss our opinion on the OSM’s financial statements, our consideration of the
OSM’s internal control over financial reporting, our tests of the OSM’s compliance with certain
provisions of applicable laws and regulations, and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of the OSM as of September 30, 2002
and 2001, and the related consolidated statements of net cost for the years then ended, and the related



          KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
          a member of KPMG International, a Swiss association.
consolidated statement of changes in net position, combined statement of budgetary resources, and
consolidated statement of financing for the year ended September 30, 2002.
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the OSM as of September 30, 2002 and 2001, and its net costs for the years then
ended, and its changes in net position, budgetary resources, and reconciliation of net cost to budgetary
obligations for the year ended September 30, 2002, in conformity with accounting principles generally
accepted in the United States of America.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
accounting principles generally accepted in the United States of Americ a and OMB Bulletin No. 01-09,
Form and Content of Agency Financial Statements. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information and, accordingly, we express no opinion
on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. Material weaknesses are conditions in which the
design or operation of one or more of the internal control components does not reduce to a relatively low
level the risk that misstatements, in amounts that would be material in relation to the financial statements
being audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Because of inherent limitations in any internal control, misstatements
due to error or fraud may occur and not be detected. We noted no matters involving the internal control
and its operation that we consider to be material weaknesses as defined above. However, we noted other
matters involving internal control over financial reporting and its operation that that we have reported to
the management of the OSM in a separate letter dated November 15, 2002.

COMPLIANCE WITH LAWS AND REGULATIONS
The results of our tests of compliance with certain provisions of laws and regulations described in the
Responsibilities section of this report, exclusive of the FFMIA, disclosed no instances of noncompliance
that are required to be reported herein under Government Auditing Standards or OMB Bulletin No. 01-02.
The results of our tests of FFMIA disclosed no instances in which the OSM’s financial management
systems did not substantially comply with the three requirements discussed in the Responsibilities section
of this report.

RESPONSIBILITIES
Management’s Responsibilities
The Government Management Reform Act of 1994 (GMRA) requires each federal agency to report
annually to Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To assist the Department of the Interior in meeting the GMRA
reporting requirements, the OSM prepares annual financial statements.




                                                     2
Management is responsible for the financial statements, which includes:

•   Preparing the financial statements in conformity with accounting principles generally accepted in the
    United States of America;

•   Establishing and maintaining internal control over financial reporting, and preparation of the
    Management’s Discussion and Analysis (including the performance measures) and required
    supplementary information; and

•   Complying with laws and regulations, including FFMIA.
In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies. Because of inherent limitations in internal
control, misstatements, due to error or fraud, may nevertheless occur and not be detected.

Auditors’ Responsibilities

Our responsibility is to express an opinion on the financial statements of the OSM based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing Standards and
OMB Bulletin No. 01-02. Those standards and OMB Bulletin No. 01-02 require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements;

•   Assessing the accounting principles used and significant estimates made by management; and

•   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.
In planning and performing our fiscal year 2002 audit, we considered the OSM’s internal control over
financial reporting by obtaining an understanding of the OSM’s internal control, determining whether
internal control had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal
control relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide assurance on internal control over financial
reporting. Consequently, we do not provide an opinion thereon.

As required by OMB Bulletin No. 01-02, with respect to internal control related to performance measures
determined by management to be key and reported in the Management’s Discussion and Analysis, we
obtained an understanding of the design of significant internal control relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal control over
performance measures and, accordingly, we do not provide an opinion thereon.
As part of obtaining reasonable assurance about whether the OSM’s fiscal year 2002 financial statements
are free of material misstatement, we performed tests of the OSM’s compliance with certain provisions of


                                                     3
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 01-02, including certain provisions referred to in FFMIA. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws and regulations applicable to the OSM. Providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express such an opinion.
Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the OSM’s financial
management systems substantially comply with (1) federal financial management systems requirements,
(2) applicable federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

DISTRIBUTION
This report is intended for the information and use of the OSM and Department of the Interior’s
management, Department of the Interior’s Office of the Inspector General, OMB, and the U.S. Congress,
and is not intended to be and should not be used by anyone other than these specified parties.




November 15, 2002




                                                   4
